March 22, 2013

MEMORANDUM FOR:           MEGAN J. BRENNAN
                          CHIEF OPERATING OFFICER AND EXECUTIVE VICE
                          PRESIDENT

                          JOSEPH CORBETT
                          CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE
                          PRESIDENT




FROM:                     Mark W. Duda
                          Assistant Inspector General for Audit

SUBJECT:                  Management Alert – High-Risk Voyager Policy and
                          Procedure Changes for Highway Contract Routes
                          (Report Number NO-MA-13-003)

This management alert presents concerns with policy changes, that came to our
attention during our ongoing audit of the Voyager Card Program for highway contract
routes (Project Number 13XG012NO000), which was requested by the postmaster
general. We were asked to look into controls over the Voyager Card Program for
highway contract routes.

If you have any questions or need additional information, please contact Robert J.
Batta, Deputy Assistant Inspector General for Mission Operations or me at 703-248-
2100.

Attachments

cc: Patrick R. Donahoe
    Susan M. Brownell
    David E. Williams, Jr.
    Corporate Audit and Response Management
High-Risk Voyager Policy and Procedure Changes                                         NO-MA-13-003
 for Highway Contract Routes



Introduction

While conducting an audit of the Voyager Card Program1 for highway contract routes
(HCR),2 we became aware of recent and proposed changes to the Fuel Management
Program (FMP) policy,3 which governs the U.S. Postal Service’s fuel program for HCR
suppliers. We wanted to immediately bring to your attention our concerns and the
associated risks of the policy changes. Specifically, the recent and proposed policy
changes significantly weaken the controls of the Voyager Card Program and can
increase the risk for a greater number of instances of fraud and abuse in the program.
Previously, the U.S. Postal Service Office of Inspector General (OIG) has expressed
concerns with the Postal Service’s inadequate control environment and the related
control weaknesses over the HCR Voyager Card Program.4 There have been a large
number of fraud investigations and convictions within the program, which often indicates
a need to increase rather than loosen vigilance.

Most other procurers of transportation services either share responsibility for fuel to
incentivize economies or assign it to transportation providers. They also include a
mechanism to accommodate the need for price adjustments due to fuel price volatility.
The Postal Service pays for all the fuel used by its HCR contractors. The Postal
Service’s fuel program creates disincentives to conserve and indifference to costs. It is
complex for providers and is vulnerable to fraud and inadequate controls.

The annual FMP policy provides guidance to HCR suppliers and the Postal Service
regarding the HCR Voyager Card Program, including authorized uses of the Voyager
card and pooling of gallons by suppliers. In 2012, the pooling policy was changed, and
the policy now allows a contractor with multiple Postal Service HCRs, each with
individual fuel usage requirements, to be treated as one large contract. This allows a
contractor to offset fuel overages in one particular contract route with underuse of fuel
on another contract route under his or her control, allowing the avoidance of
reimbursing the Postal Service for any fuel usage above an individual contract limit.
Before the pooling change in 2012, contractors were required to submit a request and
justify any pooling and fuel usage above the contract limits. The Postal Service would
require reimbursement of fuel usage in excess of the contracted gallons for each
individual contract route unless pooling was expressly approved for the benefit of the
Postal Service.5



1
  The Postal Service’s HCR Voyager Card Program is a unique program whereby it gives thousands of fuel cards to
its more than 2,000 unique suppliers and directly pays for the charged transactions.
2
  The OIG issued the audit announcement letter dated November 20, 2012.
3
  The FMP defines policies and procedures covering the various methods of reimbursement for fuel for HCR
suppliers, including the HCR Voyager Card Program, fuel index adjustments, and one-line fuel certifications.
4
  Management of the Highway Contract Route Voyager Card Program, NL-AR-11-003, dated June 7, 2011.
5
  Before the 2012 policy change, pooling was only allowed for those instances in which fuel purchased on one
contract might be used on another contract based upon maintenance operations, line-of-travel, or method of
operation.
                                                           1
High-Risk Voyager Policy and Procedure Changes                                                        NO-MA-13-003
 for Highway Contract Routes


Presently, the Postal Service provides for an annual allotment of fuel gallons per
contract based on miles per gallon for each contract route. They do not provide any
allowance for fuel usage for non-Postal Service purposes.

In fiscal year (FY) 2012, the Postal Service paid more than $724 million for fuel
transactions covering the purchase of more than 185 million gallons by HCR suppliers
using Voyager cards, traveling more than 1.2 billion miles.

Conclusion

We identified recent and proposed policy changes that could result in increased risk of
fraud, waste, and abuse. Specifically, these policy changes include:

   The 2012 change that allowed the expansion of pooling of gallons across the
    suppliers’ HCRs without regard to postal operational needs or benefit to the Postal
    Service.

   The 2013 proposed policy change that removes the restriction of fuel usage for non-
    postal services.

The Postal Service stated it made or proposed these changes to reduce the
administrative burden associated with HCR contract negotiations, as well as
management of the Voyager Card Program. The combination of the 2012 policy
changes, as well as the 2013 proposed policy changes shows a pattern of the
weakening of internal controls6 over the Voyager Card Program.

We estimate that the policy change in FY 2012 regarding pooling put up to 15.4 million
gallons7 of fuel overage at a cost of more than $60.4 million at risk of not being
recovered by the Postal Service for the period July 1, 2011 through June 30, 2012. In
addition, the initial proposed changes to the 2013 FMP policy could further erode the
controls over the Voyager Card Program.

During our review, and based on OIG discussions, management withdrew their
proposed FY 2013 changes so that fuel use for non-Postal Service purposes is still
prohibited. However, the changes are not yet final, and opportunity still exists for
additional changes before finalization. The purpose of this management alert is to
ensure that the restrictions on fuel use for non-Postal Service purposes is reflected in
the final version of the 2013 FMP policy and to recommend the Postal Service reverse
the 2012 change that expands pooling of fuel over multiple contract routes.



6
  The OIG identified in the prior FMPs changes that eliminated the monthly review of transactions and the
requirement of timely reconciliations.
7
  The estimated fuel overage gallons were obtained from the Postal Service’s Enterprise Data Warehouse (reports for
the period July 1, 2011 to June 30, 2012. We used all active contracts for the period July 1, 2011 to June 30, 2012.
The gallons over the annual contract allotment were multiplied by the fuel cost average for that contract for the fuel
period.

                                                          2
High-Risk Voyager Policy and Procedure Changes                                                   NO-MA-13-003
 for Highway Contract Routes


Voyager Policy Changes

Fuel Management Program Implemented Policy (April 2012)

The April 2012 FMP policy change eliminated the need for HCR suppliers to show an
operational requirement and benefit to the Postal Service for fuel pooling.8 We believe
this policy change further weakens controls because it would further facilitate fuel
purchases and usage for operations outside a specific HCR contract. The requirement
that pooling only be allowed when it had a specific operational benefit to the Postal
Service had been in the 2011 policy, and we believe it is a valid control to protect the
Postal Service against unauthorized use of the Voyager card.

Specifically, Section 8.1, Pooling was completely revised to read:

        Suppliers purchasing fuel using the Fuel Transaction Card will have
        all gallons for all participating contracts aggregated into one
        utilization pool…

Fuel Management Program Proposed Policy Changes (January 2013)

The proposed changes to the FMP policy dated January 20139 include the elimination
of the requirements for HCR suppliers to use the fuel transaction cards to purchase fuel
for HCR services only. The proposed changes would have:

   Deleted the requirement that the HCR supplier must use the fuel transaction cards to
    purchase fuel for its Postal Service HCR contract performance only.10

   Deleted examples that define unauthorized use of the cards including using the
    cards for contracts other than the authorized contract and using the cards to
    purchase fuel for vehicles other than those used to perform HCR contracts.11

   Added language that allows the HCR suppliers to use the card to purchase fuel for
    non-Postal purposes as long as the contractor does not exceed the pooled
    contracted annual gallons.12

Further, we understand that at some point officials considered removing from policy the
requirement to notify the OIGl of suspicious or fraudulent transactions. We would be
interested to know the basis and circumstances surrounding such consideration.


8
  In the OIG report NL-AR-11-003, we recommended the vice president, Supply Management, ensure that contracting
officers apply pooling in accordance with established requirements and ensure pools are appropriately documented
and approved.
9
  The Postal Service has proposed to remove these 2013 changes in its more recent FMP draft based on the
concerns raised by the OIG and meeting with Postal Service officials.
10
   Contained in Section 5.1, Fuel Payment Processing – Automated Systems: Fuel Transaction Cards – General.
11
   Contained in Section 5.2, Authorized Use of Fuel Transaction Card.
12
   Contained in Section 5.2, Authorized Use of Fuel Transaction Card.

                                                       3
High-Risk Voyager Policy and Procedure Changes                                  NO-MA-13-003
 for Highway Contract Routes


Removing safeguards and processes to report fraud should be alarming to program
managers and oversight groups.

Potential Effects

These 2012 and 2013 policy changes increase the risk of fraud, waste, and abuse.

The 2013 policy change would:

   Facilitate the improper use of fuel for non-Postal Service purposes. The proposed
    policy change would allow HCR suppliers to use the Voyager Card to purchase fuel
    for their own operations. Further, the proposed change would hinder and complicate
    the legal remedy (ability to potentially use the FMP and the restrictions of fuel use for
    administrative and legal sanctions against a supplier) that would normally be
    afforded to the Postal Service for unauthorized uses of fuel.

The 2012 policy change that was implemented could:

   Lead to the potential for non-collection of fuel overages. We estimate that up to
    15.4 million gallons of fuel were used in excess of the gallons authorized resulting in
    a potential loss to the Postal Service of more than $60.4 million in overcharges for
    the period July 1, 2011 through June 30, 2012. Expansion of the pooling allowance
    will make recovering these amounts even more difficult, and possibly result in non-
    recovery of these overcharges.

   Hinder the ability of the Postal Service to determine actual fuel usage per contract.
    The policy change allowed the aggregation of fuel across HCR contracts for a
    vendor, rather than an individual HCR contract. As a result, the ability to make fuel
    adjustments for contracts based on actual use is significantly diminished.

   Provide an Unfair Competitive Advantage to Some Contractors. Contractors that
    have multiple contracts with the Postal Service may now have an unfair advantage
    when bidding on new available routes as a result of the leverage provided by
    pooling. For example, pooling may allow the contractor to offset one particular HCR
    contract's gallon shortage with another contract’s overage. This can allow a
    contractor to underbid a contract to secure more contracts and reduce competition.

In addition, the lack of an appropriate control environment could place the entire
program at risk as it may violate the Postal Service’s agreement with, and requirements
under, the U.S. General Services Administration’s (GSA) SmartPay®2 Card Program.
Specifically, the GSA authorized the Postal Service in FY 2000 to issue fuel transaction
cards to HCR suppliers provided the Postal Service instituted and ensured appropriate
controls were in place and assumed full responsibility for all charges, including
unauthorized charges.




                                                 4
High-Risk Voyager Policy and Procedure Changes                                  NO-MA-13-003
 for Highway Contract Routes


Recommendations

We recommend the chief operating officer and executive vice president, the chief
financial officer and executive vice president, instruct the vice president, Supply
Management to:

1. Reverse the 2012 policy change or provide justification for the operational need and
   identify the costs and benefits for pooling across all contracts.

2. Not allow the proposed 2013 policy change and ensure the policy continues to
   restrict the use of fuel purchased under the Voyager Card Program for non-Postal
   Service (non-highway contract route) purposes.
    
3. Provide explanation as to the basis and circumstances surrounding the
   consideration to remove from policy the requirement to notify the U.S. Postal Service
   Office of Inspector General of suspicious or fraudulent circumstances involving
   highway contract route suppliers.

Management’s Comments

Management agreed with our findings and related recommendations 1 and 2. They
acknowledge the OIG concerns with the 2012 implemented pooling policy change. They
will revert back to the policy that was in effect in the 2011 FMP guidelines, and this will
be reflected in its 2013 FMP guidelines. Additionally, management stated its
commitment not to implement the proposed 2013 policy change and to continue to
restrict the use of the fuel purchase card under the Voyager Card Program for non-
Postal Service use (non-HCR purposes).

Regarding recommendation 3, Postal Service management provided an explanation as
to the basis and circumstances surrounding its consideration in 2012 to remove from
the FMP policy the requirement to notify the OIG of suspicious or fraudulent
circumstances involving HCR suppliers. Management explained that its actions
stemmed from discussions with the OIG in December 2011 and several months;
thereafter, relating to an allegation of potential fraud by a non-Postal Service entity. The
Postal Service believed the OIG would not investigate potential fraud by non-postal
entities unless it receives a request to do so from the Postal Service. Management
stated they were unable to confirm their understanding as to the OIG position and
proceeded to draft a FMP policy change that would require suppliers to directly notify
the fuel card provider of potential fraud instead of the OIG. According to Postal Service
management, the intent of the proposed FMP change was in response to an OIG policy
change on what the OIG will investigate relative to non-postal entities. Management
concluded the Postal Service did not pursue the 2012 change to the FMP because it
had not received confirmation from the OIG as to what it investigates relative to non-
postal entities.




                                                 5
High-Risk Voyager Policy and Procedure Changes                              NO-MA-13-003
 for Highway Contract Routes



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations 1
and 2, and actions taken by management should resolve the issues identified in the
report. Regarding recommendation 3, we disagree with the Postal Service’s summary of
the facts surrounding its proposed FMP change to remove from policy the requirement
to notify the OIG of suspicious or fraudulent circumstances involving HCR suppliers.

The OIG has made clear over the years its broad scope to investigate and audit Postal
Service activities, including non-postal entities. The Postal Service’s response is
referencing a discussion that occurred in December 2011 between Postal Service and
OIG attorneys. The Postal Service’s subsequent e-mail synopsis of this conversation
(dated February 1, 2012) contained a number of errors, including that the OIG does not
investigate non-postal entities unless specifically requested by the Postal Service. The
OIG’s written response of March 2, 2012 corrected the Postal Service’s interpretive
errors and stressed that the OIG may investigate all Voyager fraud, regardless of Postal
Service employee involvement or not.

The OIG considers all recommendations to be significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 6
High-Risk Voyager Policy and Procedure Changes                NO-MA-13-003
 for Highway Contract Routes


                          Appendix A. Management's Comments




                                                 7
High-Risk Voyager Policy and Procedure Changes       NO-MA-13-003
 for Highway Contract Routes




                                                 8
